CERTIFICATE OF SERVICE
NO. TBD
Justin Pannell
Petitioner,
v.
Roger Abshire and USK9 Unlimited, Inc.
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the JUSTIN
PANNELL PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the same
by Fedex 2-Day, prepaid for deliveryto the following addresses.
Randall C. Owens
Wright Close & Barger, LLP
One Riverway, Suite 2200
Houston, TX 77056
(713) 572-4321
owens@wrightclosebarger.com
Counsel for Roger Abshire and USK9
Unlimited, Incorporated

Benedict J. Hoffman
Attorney at Law
One East Greenway Plaza
Suite 1005
Houston, TX 77046
Counsel for Roger Abshire
and USK9 Unlimited, Incorporated

Lucas DeDeus

September 16, 2021

SCP Tracking: Houthuijzen-917 Franklin St., Suite 230-Cover White

